 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-5503

Kevin L. Martin — y, Christopher Nicholson

(Petitioner) (Respondent)
IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
{Z Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has chan; since your admissiori):

  

Signature

Date: ¢ Zlz1 [as20

Aaron T. Craft
Mr. O Ms. O Mrs. O Miss

Office of the Attorney General

 

 

 

(Type or print) Name

Firm

 

Address _Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone_3!7-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kevin L. Martin DOC #169789
Westville Correctional Facility 5501 S$. 1100 W.
Westville, IN 46391
